BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of the Cato Institute, the Competitive
Enterprise Institute, and the Chamber of Commerce of
the United States of America as Amici Curiae in
Support of Petitioner in 20-276, Christopher M. Gibson
v. Securities and Exchange Commission, et al., was
sent via Three Day Service to the U.S. Supreme Court,
and 3 copies were sent via Three Day Service and email to the following parties listed below, this 5th day
of October, 2020:
Gregory George Garre
Latham & Watkins LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
gregory.garre@lw.com

Counsel for Petitioner
Jeffrey B. Wall
Acting Solicitor General
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
Supreme CtBriefs@USDOJ.gov

Counsel for Respondent

I (800) 890.5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

www.beckergallagher.com

8790 Governor's Hill Drive
' Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
. Washington, DC 20005

Cynthia Fleming Crawford
[1 copy]
Americans for Prosperity Foundation
1310 N. Courthouse Road
7th Floor
Arlington, VA 22201
(571) 329-2227
ccrawford@afphq.org

Counsel for Amicus Curiae
Americans for Prosperity Foundation
Lawrence S. Ebner
[1 copy]
Atlantic Legal Foundation
1701 Pennsylvania Ave NW, Suite 200
Washington, DC 20006
(202) 729-6337
lawrence.ebner@atlanticlegal.org

Counsel for Amicus Curiae
Atlantic Legal Foundation

Ashley C. Parrish
Counsel of Record
Russell G. Ryan
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
202-737-0500
aparrish@kslaw.com
Ilya Shapiro
Cato Institute
1000 Mass. Ave. NW
Washington, DC 20001
(202) 842-0200
Daryl L. Joseffer
Tara S. Morrisey
U.S. Chamber Litigation Center
1615 H Street NW
Washington, DC 20062
202-659-6000

Counsel for Amici Curiae

,I

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 5, 2020.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

